 ..
..




                              ACCESS     TOMEDICAID-COVERED
                                        PRENATAL CARE

                                       MAGEMEN ADVIRY RERT




             l"VICES'
                        V.r




       '0


            lt""la




      . OFFICE OF INSPECTOR GENERAL
        OFFICE OF EVALUATION AND INSPECTIONS
                                                              OCOBER 199

. ,

. "




                                 OFFCE OF INSPECTOR GENERA

       The mission of the Office of Inspector General (DIG) is to promote the efficiency,
       effectiveness , and integrity of programs in the United States Department of Health and
       Human Services (HHS). It does this by developing methods to detect and prevent fraud
       waste , and abuse. Created   by statute in 1976 ,   the Inspector General keeps both the
       Secretary and the    Congress fully and currently informed about programs or management
       problems and recommends corrective action. The OIG performs its mission by
       conducting. audits , investigations , and inspections with approximately 1 400 staff
       strategically located around the country.


                           OFFCE OF EVALUATION AN INSPECTONS

       This report is produced by the Office of Evaluation and Inspections (OEI), one of the
       three major offices within the DIG. The other two are the Office of Audit Servces and
       the Office of Investigations. Inspections are conducted in accordance with professional
       standards developed by DEI. These inspections are tyically short- term studies designed
       to determine program effectiveness , efficiency, and vulnerabilty to fraud or abuse.

       This management advisory report (MA),        Access To Medicaid- Covered  Prenatal Care
       presents preliminary findings regarding: 1) barrers to State and  local implementation of
       optional eligibility expansions for Medicaid-covered prenatal care servces and 2) effective
       techniques to implement these expansions. Two companion reports will be issued
       addressing more detailed findings from a two- phase study conducted at both State and
       local levels.



       The MAR was prepared under the direction of Ralph Tunnell, the Regional Inspector
       General of Region VI , Office of Evaluation and Inspections. Participating in this project
       were the following people:

       Carolyn Neuwirth , Project Leader, Region VI , OEI
       Michelle Adams , Program Analyst , Region VI , OEI
       Elsie Chaisson , Program Analyst , Region VI , DEI
       Carol Cockrell , Program Analyst , Region VI , DEI
       Christine Owens , Program Analyst , Region I , OEI
       Maruta Zitans , Program Specialist , Washington , D. , OEI
, ,





                    ACCESS     TO MEDICAID- COVERED
                              PRENA TAL CARE

                             MAGEMENT ADVIRY REPORT




                              RICH P. KUSSEROW
                               INSPECTOR GENERAL




       OEI-090162                                     OCOBER 199

                                                                                            ..   .-




             ACCE TO MEDICAI-CVERED PRENATAL CAR
                                    OAI        90162
PUROSE
This management advisory report (MAR) presents preliminary findings regarding
1) barriers to State and local implementation of optional eligibilty expansions for
Medicaid-covered prenatal care services and 2) effective techniques to implement
these expansions.



BACKGROUN
In the early 1980s   , the Congress provided a way for more women to receive
temporary assistance with pregnancy-related health care through Medicaid (title XIX
of the Social Security Act). This preventative prenatal care was aimed at reducing
the incidence of infant mortality and low birthweight babies (LBW).

Catastrophic Costs Related to Inadequate Prenatal      Care

LBW babies are three times more likely to be born of women who receive no
prenatal care (U. S. General Accounting Office , 1987). Costs to maintain these
babies in neonatal intensive care units can range from $12, 000   to $150   000 per child
(Office of Technology Assessment,     1987).


Closely linked to LBW is infant mortality. In 1985 , two- thirds of infant deaths
occurring during the first month of life were LBW babies (U. S. GAO , 1987). Those
survving risk long- term physical and mental disabilities. Receipt of insufficient
prenatal carel is also a contributing factor to infant mortality. Of women receiving
insufficient care , infant mortality rates are highest among unmarred women,
teenagers , the least educated , blacks , Hispanics , and poor marred women (Gold
Kenney, and Singh , 1987).


Of all groups , teens are the least likely to get early prenatal care , thus placing
themselves , as well as their babies , at the highest risk of health complications
(Children s Defense Fund , 1989). Data from the National Infant Mortality
Surveilance project (Centers for Disease Control , 1987) confirms that infants born of
teen mothers are more likely to be LBW and more likely to die in the first year of
life.

The U. S. Department of Health and Human Servces has long contended that three-
fourths of associated health   risks may be detected during the first prenatal care visit
(Committee on Government Operations , 1988). Cost savings from subsequent
interventions could greatly reduce expenditures for direct medical care of LBW
babies. The Institute of Medicine (1988) calculated that in 1985 for every $1 spent
on insuring adequate prenatal care for low- income , poorly educated women , total
expenditures could be reduced by $3.38 from costs accrued during a LBW baby s first
year.

federal        ative Cpanges Exand Eligibilty

Some of the most sweeping legislative changes in eligibilty for Medicaid-covered
prenatal care were authorized by the Sixh Omnibus Budget Reconciliation Act
(SOBRA- 86). It decoupled Medicaid eligibilty from Aid to Familes with
Dependent Children (AFC), which could promote a new mindset of non-welfare
related Medicaid-covered prenatal care. Through this enabling legislation , States
were given the option to set eligibilty limits up to   185 percent of the Federal
poverty level (FPL).

Other State options authorized by SOB        are:

               Continuous Eligibilty--Mter a pregnant woman s initial eligibilty is
               determined , she is guaranteed Medicaid coverage throughout her
               pregnancy and 60 days postpartum, regardless of income changes.

               Presumptive Eligibilty--Based on a cursory review of income , a
               pregnant woman may be immediately presumed eligible at time of
               application and may be temporarily covered for ambulatory prenatal
               care until formally accepted into the program.

               Resources (Asset) Test-- Resources and assets , e. , a car, home , and
               savings , could be disregarded in processing a pregnant woman
               application.

                   States were mandated to provide Medicaid- covered prenatal
As of April 1 , 1990 ,
care servces to women with family incomes up to 133 percent FPL ($13, 380 for a
family of three).

Other OIG Reports Address Issue of Infant Mortality

In recent OIG reports , two programs aimed at reducing infant mortality were
reviewed. One study reported that supplemental funding to areas with high rates of
infant mortality are available to comrimnity and migrant health centers through the
Comprehensive Perinatal Care Program (OEI , May 1990) but that these grants need
to be more widely distributed. In another study, a local program to reduce infant
mortality was analyzed. Findings indicated that successful implementation strategies
should include targeting client outreach, conducting risk assessments, ensuring
adequate clinical servces , and fostering indigenous community leadership (OEI
July 1989).

METHODOLOY
A descriptive analysis of Federal and State eligibility expansions for Medicaid-covered
prenatal care servces was undertaken in a two- phase study at the State and local
level. Phase 1 involved onsite visits in one to two counties per State in eight States.
Sample selection depended on whether the county had the highest volume of
Medicaid births and/or it was identified by the State as having diffculties with
access/delivery of Medicaid-covered prenatal care.

Data collection for Phase 1 was completed in June 1990. Visits were made to
Alabama , Arkansas , Florida , Maryland , Pennsylvania , Colorado , New Jersey, and
New Hampshire. The first five States represent a sample of those most eagerly
endorsing all federally mandated and optional eligibilty expansions for Medicaid-
covered prenatal care since SOBRA- 86. Colorado represents a State most recently
implementing all the expansions; New Jersey, a State with all the options but with
permission from HCFA to remain at 100% FPL until their legislature meets in 1991;
and New Hampshire , a State not yet adopting any optional expansion categories.

A total of 233 persons were surveyed: 15 Medicaid-eligibilty supervsors, 44 eligibilty
intake/determination workers , 36 providers , and 137 women who are either currently
receiving or have received Medicaid-covered prenatal care.

Phase 2 involves telephone and mail surveys with key informants in all 50 States plus
the District of Columbia. As of this writing, 43 States have been contacted.


PRELIMARY FIINGS
The following preliminary findings are based on selected Phase 1 and Phase 2 data.

       State Implementation of Optional Authorities for Medcad-Cered Prenata
       Cae Servces Is Mied.
              Of the 43 States surveyed so far , 40 have waived the asset/resource
              test; 41 have opted for continuous eligibilty.

              Far fewer States (19) have elected to voluntarily raise the level of
              poverty above 133 percent FPL. Fifteen States are at 185 percent
              FPL, with 6 at this level since 1988 and 5 since 1989.

              Only 21 States have adopted presumptive eligibilty. Either
              administrative complexity or having a streamlined eligibilty process
              already in place are cited as reasons for not using presumptive
       eligibilty. . For example , Vermont reports a 10- day expedited formal
       determination process; Minnesota , a 15- day turnaround.

Signcat Baers Sti Ext to Accing and               Delierig   Medcad-Cered
Prenata Cae Servce.
Even though potentially one of the least complicated and easiest Medicaid
programs to administer , barriers stil hinder access to , and delivery of, prenatal
care servIces.

       Insufficient Client Outreach Often Keeps Medicaid-Covered Prenatal
       Care a Well-Hidden Secret

       When asked to identify SOBRA women to be intervewed , most States
       and providers had difficulty with this request. Most women receiving
       Medicaid-covered prenatal care servces were either borderline welfare
       cases or , already eligible Medicaid recipients.


       Knowledge of Medicaid-covered prenatal care servces is stil being
       spread primarily through the ' 'welfare grapevine. " Eighty-nine percent
       of the States rely on this informal means of communication. Ninety-
       four percent of Medicai eligibilty supervsors intervewed during Phase
       1 say their agency relies on clients tellng clients.

       Even among the States reporting some form of active outreach , over
       half neither target new eligibles (SO BRA) nor high- risk women.
       (SOBRA eligibles include women who are above the poverty level used
       for other government-sponsored programs and who are usually marred
       better educated , regularly employed in low paying jobs , as well as those
       who are underinsured. Women who are substance abusers , medically
       high-risk, teenagers, welfare recipients , and women in their mid-thirties
       or above are considered high-risk.


       Conflcting Timeframes to Process Presumptive Eligibles Leave Some
       Women Without Medicaid- Covered Prenatal Care Servces

       SOBRA- 86 allows a maxmum presumptive eligibilty period of 45 days.
       This timeframe includes 1) application for continued Medicaid-covered
       prenatal care servces within 14 days of being    presumed eligible and 2)
       the determination of formal eligibilty. If a woman waits until the 14th
       day to make a formal application, eligibilty workers would then have
       up to 31 days to make a fQrmal eligibilty determination (initial 14 days
       of presumptive eligibility + 31 days to process case = 45 days to
       inform a woman of her formal eligibilty status).
A few States are not adhering to this timeframe but are allowing an
additional 2 weeks to process a formal eligibilty application (initial 14
days of presumptive eligibility + 45 days to process case = 59 days to
inform a woman of her formal eligibility status).    In such cases a
woman could potentially be without Medicaid coverage for prenatal
care servces for up to 14 days. Clearly, such States are not following
the legislative timeframe established by SOBRA- 86.

The Application Process is Cumbersome

Complexity of the application form, use of multiple application sites
and uncertain eligibilty status are hindering access to Medicaid-covered
prenatal care servces.



Six-eight percent of the States say they have a problem with women
not completing the application process. Few States use a simplified
application form tailored to collect only the few eligibilty requirements
needed to get Medicaid-covered prenatal care. In addition , women are
having to make a formal application at a site other than where their
pregnancy is verified or where they were determined presumptively
eligible. Over three-fourths of the women report having to go to
another location. Other listed factors contributing to lack of follow-
through are requiring face-to- face intervews with the formal eligibilty
worker to get an application form, the stigma attached to going to the
welfare office , lack of transportation to application sites , and formal
eligibilty intake workers asking for too much informatiqn in an attempt
to see if a woman qualifies for other programs.

Reimbursement and Liabilty Issues Are Disincentives for Providers to
Accept Medicaid Eligibles

       Providers Not Accepting Medicaid Is a Major Problem

       Eighty-eight percent of the States say they   have problems with
       health care providers not accepting Medicaid. More than half of
       the Medicaid eligibilty supervsors think women don t even apply
       for Medicaid-covered prenatal care servces because women feel
       providers don t accept Medicaid; nearly a third of the women in
       Phase 1 report the same.
              Low and Slow Reimbursement Are Major Obstacles to Provider
              Part cipation

              Eighty-six percent of the States say low reimbursement rates
              contribute to provider dissatisfaction; 60 percent of the States
              say slow turnaround for reimbursement discourages provider
              participation.

              Cost of Liabilty Insurance and Belief that Medicaid Clients are
              More Likely to Sue Keep Some Providers from Accepting
              Medicaid

              Seventy-one percent of the States think providers don
              participate in Medicaid-covered prenatal care servces because of
              the high cost of liabilty insurance. Also, 62 percent of the
              States say providers ' perception that Medicaid clients are more
              likely to sue is a problem in getting providers to participate.

              Only ambulatory care can be paid for by Medicaid while a
              woman is presumptively eligible. Hospital inpatient care for
              such pregnancy-related complications as miscarrage , early
              delivery, or need for sophisticated procedures such as an
              ultrasound are not covered during this period. Therefore , some
              women may not be receiving medically necessary servces.
              Additionally, some doctors are reluctant , or flatly refuse , to
              accept presumptively eligible women , judging the financial or
              liabilty risks of servng them too great.

     Thew Opstetrician/Gynec010gists (O                    emains a System
     Capacity Issue

     Over half of the States report a shortage of OB/GYNs in both urban
     and rural areas , with "a quarter of States experiencing a shortage in
     rural areas only.



Inovatie Practces to Enhance Acc to, and Deliery of, Medcad-Cered
Prenata cae    Servce Do Ext.

     Client Outreach

              Examples of well- developed print materials are found in New
              York' s brochures , handouts that hang on doorknobs , and posters.
              Printed in both English and Spanish , they include listings of
              servces available , income requirements to qualify for Medicaid­
.. ..   -.                , "                , "




              covered prenatal care, and a toll- free number for more
              information.

              Designating a special name to Medicaid-covered prenatal care
              servces also heightens women s awareness. Ohio calls its
              program "Healthy Start" ; Utah Baby Your Baby ; and
              Colorado Baby Care . Since June of this year, Ohio s " Healthy
              Start" campaign has done intensive television advertising, run
              over 100 newspaper ads , used a marketing firm to do speeches
              and participate in talk shows, as well as running " Baby Fairs" to
              let women know about. Medicaid-covered prenatal care servces.

              Several States have solicited non-profit and private
              organizational support for client outreach. The March of Dimes
              assists Arkansas , Blue Cross- Blue Shield aids New Hampshire
              and Maryland , and private organizations are used by Sou
              Carolina.

              In 12 South Carolina counties ,   networks of nonprofessionals (lay
              women) are used to contact the hard-to-reach      population. In
              Virginia, lay women act as " mother" role models for pregnant
              teens.

              Florida and Alabama have outstationed eligibilty workers
              lessening the welfare stigma and making the application process
              more accessible.

             . South Carolina and Colorado give coupon books to women
              receiving prenatal care.

        Application Form

              Several States have developed shortened application forms to.
              collect only the information required for Medicaid-covered
              prenatal care eligibilty. Colorado , Ohio , and Vermont report
              usirig a shortened application form designed especially for
              Medicaid-covered prenatal care servces.

        Provider Incentives to Accept Medicaid

              Maine offers OB/GYNs between $5000 and $10 000 supplements
              toward medical insurance in exchange for practicing in shortage
              areas.
                                                                    ,,;.




                    Washington State uses a Physician Marketing Plan to contact
                    new providers. Also , primary care clinics in . distressed areas are
                    given higher reimbursement rates.

                    Missouri is establishing a State legal defense fund , as well as a
                    provider education program.

                    Maryland has hired seven nurses to do provider outreach.


PRELIMARY RECOMMATIONS -                       ESENT ELEMENf OF
MODEL SYSTEM


Certain essential elements for more effective access/delivery of Medicaid-covered
prenatal care servces emerged from both in- depth State and local inter;ews with
key informants and recipients , as well as onsite observations.

      Gettg the Word Out is Critica.
             Eight- five percent of the State respondents agree that active outreach
             needs to be conducted.



             Increasing awareness of the need for prenatal care ,as well as the
             availabilty of Medicaid funds to pay for these servces , should be done
             at Federal , State , and local levels.

                    Conduct a national ad campaign similar to " Just Say No
                    supported through private sponsorship and grants from non­
                    profit organizations.



                    Establish a statewide hot line to provide information about
                    access/delivery of Medicaid-covered prenatal care servces.
                    Existing State maternal and child care hotlines could be shared
                    for this purpose. Ninety-eight percent of the surveyed States
                    agree on the need for a hot line.

             Do statewide targeted marketing to SOBRA eligibles , high- risk, and
             hard- to-reach women. Such outlets as churches , housing projects
             neighborhood recreation centers , and shopping centers would be helpful
             in identifyng w.omen early in their pregnancies (OEI, 1989r
                             ;... .;




Drop the Ast Test.

       NinetY-ejght' -peTceritOfthi Sfate.: respondents agree that the asset test
       should be dropped as an eligibilty condition for Medicaid-covered
       prenatal care servces.



 Guarantee Contiuous Eligibilty Unti 60 Days Postparm.

       All State respondents believe continuous eligibilty should be
       guaranteed until 60 days postpartum.

States with Presumptie Eligibilty Should Adhere to the 45-Day
Determation Period
       Assure States are abiding by the 45- day presumptive eligibilty time
       frame as prescribed in SOBRA- 86.

 Combine Both the Presumptie Eligibilty and Formal Application Procss into
. One Function, Whether Contrcted Out or Kept With the Medicad Agency.

       Non- Medicaid intake workers can gather the needed information for
       application: income verification , family size determination , residency
       establishment (Federal and State), and identification of any children
       under 6 years old residing with the applicant. The application , plus
       the documentation needed to verify this information , can be sent for
       processing at the local welfare office , eliminating the need for a woman
       to go to another site to formally apply.

       Six-two percent of the State respondents agree that this function
       could be combined. This process would eliminate the need for
       transportation to a    second application site, as well as avoid the stigma
       associated with applying at a welfare offce.


       Develop a shortened application form to collect only the few eligibilty
       items needed to get Medicaid-covered prenatal care servces.

 Simpli the Eligibilty Verication Proc.
       To clarify eligibility status , issue two separate cards or letters: one to be
       used during the ptesumptive eligibilty period and another for use after
       formal acceptance which is valid until 60 days postpartum. Fifty-seven
       percent of the States agree this would lessen confusion for both servce
       recipients and providers.
     Use only one contro number to track both presumptive eligibilty and
     formal acceptance status. By doing so ,   biling wil be less problematic
     . for health care providers. Eighty-six percent of the State respondents
      concur.

     Have an on- line or telephone eligibilty verification system to track the
     current status of women receiving Medicaid-covered prenatal care
     servces. The system needs   to be accessible to both health care
     providers and eligibilty workers. Ninety-seven percent of the State
     respondents agree this servce is needed.

Asure Adequate Provder     Paricipation to Delier Medicad-Cvered Prenata
Cae Servce.

     Seventy-six percent of the States   have already raised reimbursement
     rates; 17 percent offer some tye of    assistance with liabilty insurance.


      Encourage use of such alternative health care providers as certified
      nurse midwives , family nurse practitioners , and physician assistants.
                                      ENDNOTE


1. The Alan Guttmacher      Institute (Gold , Kenney, and Singh , 1987:14) defined
insufficient prenatal care as " poor or no care and less- than adequate care. Care is
considered poor if started in the third trimester, or if there had been only one
prenatal visit and gestation was 22- 29 weeks , two visits and gestation was 30­
weeks , three visits and gestation was 32- 33 weeks , or four visits and gestation was 34
weeks or longer. Care is considered less than adequate if the first visit did not occur
before the second trimester, or if there were only three prenatal visits and gestation
was 22- 25 weeks , or four visits and gestation was 26-29 weeks , or five visits and
gestation was 30- 31 weeks , or six visits and gestation was 32- 33 weeks , or seven visits
and gestation was 34- 35 weeks , or eight visits and gestation was 36 weeks or longer.

2. Title XIX of the Social Security Act has been amended through the:
              Tax Equity and Fiscal Responsibilty Act (TEFRA P. L.97- 248) of 1982.
              Deficit Reduction Act (DEFRA P.L.98- 369) of 1985.
              Consolidated Omnibus Reconcilation Act (COBRA P. L.9.9- 272) of
               1985.
               Omnibus Budget Reconcilation Act (OBRA P. L.99- 509) of 1986.
               Omnibus Budget Reconcilation Act (OBRA P. I00- 203) of 1987.
               Medicare Catastrophic Coverage Act (MCCA, P. L.I00- 3601P. I01- 234)
               of 1988.

               Omnibus Budget Reconcilation Act (OBRA P.L.I01- 239)           of 1989.


3. Presumptive   eligibilty allows pregnant women to receive ambulatory prenatal care
before being formally accepted into the Medicaid program. Determination is based
on income and determined by a Medicaid- qualified provider or intake worker.
determined presumptively eligible , the woman remains in this status for 14 calendar
days from the date of presumptive determination. If the woman makes a formal
application for Medicaid within these 14 days , her temporary eligibilty will continue
until the earlier of the date the State makes a formal determination or 45 days after
the presumptive determination is made: If the woman fails to make formal
application within the 14- day.period , presumptive eligibilty ends on the 14th day
after the  presumptive determination.
. .
